HHS/OIG, Audit -"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 2001,"(A-04-02-08003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 2001," (A-04-02-08003)
March 4, 2003
Complete
Text of Report is available in PDF format (251 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of the National Institute of Environmental Health Sciences (NIEHS)
Superfund financial activities for Fiscal Year 2001.  The audit showed that NIEHS incurred obligations and made disbursements
for allowable, allocable, and reasonable Superfund costs.